No. 20-659

 

IN THE
Supreme Court of the United States

LARRY THOMPSON, PETITIONER

ve

PAGIEL CLARK, RESPONDENT

On Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

BRIEF FOR FEDERAL COURTS SCHOLARS
AS AMICI CURIAE IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,559 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 11, 2021.

 

Colin Case Hogan
Wilson-Epes Printing Co., Inc.
